<html>
<title> - [H.A.S.C. No. 112-3] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2012 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                          [H.A.S.C. No. 112-3]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2012
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

           MORALE, WELFARE, AND RECREATION PROGRAMS OVERVIEW


                              HEARING HELD
                            FEBRUARY 9, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
64-859                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f584f507f5c4a4c4b575a534f115c505211">[email&#160;protected]</a>  



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
               Michael Higgins, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, February 9, 2011, Morale, Welfare, and Recreation 
  Programs Overview..............................................     1

Appendix:

Wednesday, February 9, 2011......................................    23
                              ----------                              

                      WEDNESDAY, FEBRUARY 9, 2011
           MORALE, WELFARE, AND RECREATION PROGRAMS OVERVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Gordon, Robert L., III, Deputy Assistant Secretary of Defense, 
  Military Community and Family Policy, Office of Under Secretary 
  of Defense for Personnel and Readinesss........................     4
Gorman, Richard, Chief Operating Officer, U.S. Army Family and 
  Morale, Welfare, and Recreation Command........................     5
Larsen, Timothy R., Director, Personal and Family Readiness 
  Division, Manpower and Reserve Affairs Department, 
  Headquarters, U.S. Marine Corps................................     6
Milam, Charles E., Director of Air Force Services, Headquarters, 
  U.S. Air Force.................................................     7
Patrick, Rogers, Acting Director, Fleet and Family Readiness 
  Programs, Commander, Navy Installations Command................     6

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    28
    Gordon, Robert L., III.......................................    30
    Gorman, Richard..............................................    57
    Larsen, Timothy R............................................   103
    Milam, Charles E.............................................   120
    Patrick, Rogers..............................................    85
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    Testimony of Sid L. Scruggs III, International President, 
      Lions Clubs International..................................   139

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   145
    Mrs. Davis...................................................   145

Questions Submitted by Members Post Hearing:

    Mr. Jones....................................................   149
    Mr. Wilson...................................................   149
           MORALE, WELFARE, AND RECREATION PROGRAMS OVERVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Wednesday, February 9, 2011.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, I am Congressman Joe 
Wilson, and I am delighted to welcome you to the first meeting 
of the Military Personnel Subcommittee of the House Armed 
Services Committee for the 112th Congress. And I am delighted 
we have an outstanding panel that we will be getting to.
    Before I begin I want to thank the staff members who helped 
make this subcommittee so important for our service members, 
military families, and veterans. And a living example of 
bipartisanship is to my left, and that is that Mike Higgins is 
remaining on to be the professional staff member. He has 
traditionally done this even in another Congress. And so--like 
the 111th--and so I am very grateful that Mike is available, 
and he is so knowledgeable on issues relative to what we will 
be discussing today. And so I am so happy that he has agreed to 
stay on.
    And of course on the majority side I am very grateful that 
John Chapla, a very distinguished VMI [Virginia Military 
Institute] graduate, is with us. And then we have Jeanette 
James, who has just been instrumental in promoting the military 
health issues for this committee. I want to thank also Craig 
Greene and Jim Weiss, and on the minority side Debra Wada. And 
so we have got people who truly are available to all of you. 
And I also want to thank the individual staff of different 
offices who are here.
    And as we begin today I also want to thank--we do have our 
freshmen here. In fact, he is all of one right now. But, hey, 
all you need is Colonel Allen West. And so, Colonel, I want to 
welcome you to the subcommittee. And I know that we have a 
number of others who are on their way with so much going on 
simultaneously. At least we will not be interrupted by votes. 
And so this is going to be a remarkable occasion that we 
actually have an orderly committee meeting.
    The Subcommittee on Military Personnel will begin the 2011 
hearing cycle with two hearings on the Department of Defense, 
DOD, nonappropriated fund activities. Today we will focus on 
morale, welfare, and recreation, MWR, programs. Tomorrow the 
subcommittee will turn its attention to the commissaries and 
exchanges, DOD's grocery and department stores.
    The subcommittee has always viewed the wide range of 
programs that comprise the military morale, welfare, and 
recreation, or MWR, community as essential elements within a 
healthy military community. The subcommittee remains strongly 
committed to supporting these programs. However, it is clear 
that DOD has correctly crossed over into a new era of austerity 
marked by an increased fiscal scrutiny of all programs in an 
unrelenting pursuit of increased budget efficiency. As the 
recipient of appropriated funds, MWR programs will be subjected 
to increased pressure to maintain effectiveness while operating 
more efficiently.
    While demands for increased effectiveness and efficiency 
are to be expected, I fear that misperceptions about the 
absence of a link between MWR programs and combat readiness 
will place these programs at a greater risk of being cut too 
deeply. I believe that vibrant MWR programs are critical to the 
health of the military community they support, and their 
superior combat capability is directly dependent on the 
strength of the military community.
    We must not allow MWR programs to become easy targets for 
the budget cutters. Certainly there will be cuts, and 
identifying the programs to be reduced will require difficult 
decisions. It is my hope that MWR managers are prepared to make 
those decisions and demonstrate the willingness to find 
savings. But those managers must also be prepared to fight hard 
to factually justify the programs that are truly critical to 
service members and their families.
    We hope to learn more about the strategy that MWR managers 
will pursue in the coming months to meet the demands of the new 
era of budget austerity.
    Next, I would like to recognize Congresswoman Susan Davis. 
And I would like to, even before she speaks, thank her for her 
prior role as the chairman of this committee. She always was a 
person who conducted the meetings fairly, in a bipartisan 
manner, and I certainly want to continue the tradition of 
Congresswoman Chairman Susan Davis.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you very much, and thank you, Mr. 
Chairman. I certainly will look forward to serving with you, 
and I just want to say that I know that you always were very 
supportive of my role, and I intend to be supportive of yours 
as well. And I appreciate being here.
    And I also wanted to thank, of course, our witnesses that 
are here today and to say that I, too, am very happy to have 
Mike Higgins sitting here between us because he is a tremendous 
source, and I also value all the other staff members who are 
going to be continuing. All have been very active on the 
personnel committee in the past and bring great skills and 
great aptitude in this area. And so it is a tremendous resource 
for us to have them. They really provide so much information, 
and a real good source, I think, of thinking about ideas, and 
how we go forward, and what some of the challenges and the 
problems will be. And as we know in past years, we will have 
plenty of those. So I want to thank them as well.
    Mr. Gordon and Mr. Patrick, welcome. I believe that this is 
your first opportunity to be with us before the subcommittee, 
and so I am glad that you are here.
    Mr. Gorman, Mr. Larsen, and Mr. Milam, welcome back to you 
all as well.
    Today is the first part of a 2-day set of hearings that 
will focus on morale, welfare, and recreation programs and the 
military resale community. We hold these hearings annually 
because these programs are important and extremely valuable to 
our military personnel and their families.
    Ten years of conflict have placed a tremendous burden not 
only on those in uniform, but also on their families, and in 
particular, we know, their children. It is important in today's 
All-Volunteer Force that we ensure that the support they need 
is there for themselves and their families. And as the chairman 
has mentioned already, as we look at the budget climate ahead 
of us, we know that we have to ensure that the MWR and the 
military resale programs continue to provide a wholesome 
quality of life for those who volunteer to serve in uniform.
    We know, of course, that we also must ensure that spending 
resources are spent efficiently and effectively. We certainly 
have a responsibility to do that. But we also have to think 
about the service member and their families.
    I certainly look forward to an open and a frank discussion 
on these issues. The dedication and commitment of our MWR 
employees that they have displayed to our military families 
under the most challenging of conditions have been remarkable, 
and we are grateful for their contributions.
    So thank you, Mr. Chairman. I look forward to hearing from 
our witnesses.
    Thank you all for being here.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 28.]
    Mr. Wilson. Thank you very much, and, of course, we 
couldn't proceed without recognizing and thanking Congresswoman 
Madeleine Bordallo for being here, and she, of course, 
represents the strategic island of Guam. What a beautiful 
territory. If you ever get a chance to visit, Hawaii looks a 
lot like Guam.
    And then I am very grateful we have been joined by--the 
freshman contingent has now doubled, thank goodness. 
Congresswoman Vicky Hartzler is here, and Congresswoman 
Hartzler is from Missouri and represents the extraordinary 
military facilities of Fort Leonard Wood. And so she will 
certainly be a great member of our committee, and she has 
already proven her dedication, we have discussed it, to the 
military personnel and military families in her district, and 
veterans.
    We are grateful to have an excellent panel of witnesses. 
Mr. Robert L. Gordon is the Deputy Assistant Secretary of 
Defense, Military Community and Family Policy, Office of the 
Under Secretary of Defense for Personnel and Readiness.
    Mr. Richard Gorman is the Chief Operating Officer of the 
U.S. Army Morale, Welfare, and Recreation Command.
    We have Mr. Rogers Patrick, who is the Acting Director of 
the Fleet Family and Readiness Programs, Commander, Navy 
Installations Command; Mr. Timothy R. Larsen, who is the 
Director of Personal and Family Readiness Programs, Manpower 
and Reserve Affairs Department of the U.S. Marine Corps; and 
Mr. Charles E. Milam, Director of Air Force Services, 
Headquarters, U.S. Air Force. And it is a great day for us in 
that Mr. Gordon and Mr. Patrick, this is the first time that 
they have appeared before the committee, according to Mr. 
Higgins, and then--and he is always correct.
    And, Mr. Larsen, Mr. Gorman, Mr. Milam, welcome back. And 
we may be joined at any time, we have a gentleman from Ohio, 
Congressman Mike Turner, to the hearing. He may be here to 
participate in the hearing, and I would ask for unanimous 
consent that he be permitted to do so following the members of 
the subcommittee. Without objection, so ordered.
    I ask unanimous consent that a statement from Lions Club 
International be included in the record. Without objection, so 
ordered.
    [The information referred to can be found in the Appendix 
on page 139.]
    Mr. Wilson. And we will begin now with our witnesses.

 STATEMENT OF ROBERT L. GORDON III, DEPUTY ASSISTANT SECRETARY 
  OF DEFENSE, MILITARY COMMUNITY AND FAMILY POLICY, OFFICE OF 
     UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Mr. Gordon. Thank you, Mr. Chairman and members of the 
subcommittee. I am delighted to testify before you today. I am 
grateful for this committee's strong support and will provide a 
quick update of our MWR activities.
    I am pleased to report that in 2009, the CFI [Claes Fornell 
International] Group, whose methodology underpins the respected 
American Customer Satisfaction Index, conducted the first DOD 
MWR customer satisfaction survey. The results indicate that MWR 
is fine, but could use work, which I don't think is surprising. 
The results help us to target available funding in areas that 
provide the greatest benefit in terms of improving MWR customer 
satisfaction. Fitness and outdoor recreation were highlighted 
as areas needing improvement. The survey will be conducted 
biannually.
    Thanks to the generous support of Congress, overseas 
contingency operation [OCO] funding provides free Internet 
access, recreation, entertainment, and library programs for 
troops in combat.
    To remain flexible and provide child care surge capacity, 
we designed programs with civilian child care providers to help 
families find affordable, quality care close to home. In 2011, 
we will further expand child care for our families using local, 
State, and Federal child and youth delivery systems. Thirteen 
States will participate in the pilot.
    DOD youth programs are particularly important now. About 
117,000 military children have at least one parent deployed, 
and research suggests that they experience more stress than 
their peers. We fund a popular nonmedical counseling program 
for children up to 18 years of age to discuss issues affecting 
them, including bullying, self-esteem, and coping with 
deployments.
    My written testimony outlines our ongoing work in greater 
detail. Please be assured that as we focus on efficiencies, we 
will take care of our most valuable asset, our service members 
and their families. Thank you for your support.
    [The prepared statement of Mr. Gordon can be found in the 
Appendix on page 30.]
    Mr. Wilson. Thank you very much.
    Mr. Gorman.

STATEMENT OF RICHARD GORMAN, CHIEF OPERATING OFFICER, U.S. ARMY 
       FAMILY AND MORALE, WELFARE, AND RECREATION COMMAND

    Mr. Gorman. Mr. Chairman, members of the subcommittee, I am 
privileged to appear before you today to share some of the ways 
we honor and support our soldiers for their service and their 
sacrifice.
    Everything we do every day is designed to support soldiers. 
Sometimes the support is direct; at other times it is indirect 
through support to their families. But all we do is always with 
the soldier at the center of our focus. Your support through 
the difficult post-9/11 period has allowed us to be successful.
    Morale, Welfare, and Recreation serve soldiers wherever 
they serve. That includes those at Camp Arifjan, as well as 
those at Fort Hood and all points in between.
    MWR programs help soldiers maintain physical fitness and 
alleviate combat stress by temporarily diverting a soldier's 
focus from combat. It also increases readiness because mission 
accomplishment is directly linked to a soldier's confidence 
that their families are safe, resilient, and capable of 
carrying on during their absence.
    Soldiers, families, and civilians are our greatest 
strategic asset and are indeed the strength of our Army. The 
Army has long recognized that if we do not retain the family, 
we simply will not retain the soldier.
    I am also very happy to report today that Army MWR Funds' 
collective financial posture is sound and supports our soldiers 
and families today, and will into the future, with cash assets 
exceeding liabilities by a rate of 1.5 to 1.
    We have seen the huge burden of 9 years of war, and we will 
continue to care for our soldiers and their families, a top 
priority for our Army.
    On behalf of America's Army, I want to thank you for your 
continued and steadfast commitment, and I look forward to your 
questions.
    [The prepared statement of Mr. Gorman can be found in the 
Appendix on page 57.]
    Mr. Wilson. Thank you very much. As an Army veteran and 
father of three sons currently serving in Army National Guard, 
thank you very much.
    Mr. Rogers Patrick.

STATEMENT OF ROGERS PATRICK, ACTING DIRECTOR, FLEET AND FAMILY 
   READINESS PROGRAMS, COMMANDER, NAVY INSTALLATIONS COMMAND

    Mr. Patrick. Chairman Wilson, Ranking Member Davis, and 
distinguished Military Personnel Subcommittee members, I am 
pleased to discuss the current status of the Navy's Morale, 
Welfare, and Recreation program with you.
    The Navy has continued to make significant strides in 
providing top-quality MWR programs. During 2009, MWR remained 
financially sound with resources totaling $920 million. This 
consisted of 426 million in appropriated fund support and 494 
million in NAF [nonappropriated fund] program revenue 
generated, with a net income of $17 million.
    Results from fiscal year 2010 were also positive, and I am 
pleased to report that after a 1-year deviation from the norm 
in 2009, Navy MWR has exceeded the 85 percent appropriate fund 
support metric for Category A programs and met the 65 percent 
metric for Category B programs in fiscal year 2010.
    Navy Installations Command's unique organizational 
structure of bundling quality-of-life programs to include MWR, 
fleet and family support centers, the galleys, and housing for 
both families and bachelors into a single organization has 
enabled us to partner with our public-private venture housing 
corporate partners through neighborhood community centers. This 
quality-of-life model has lowered our program overhead costs 
and streamlined our communications processes. With support from 
the Congress, our President, and the Secretary of Defense, the 
Navy has funded more than 30 new child development centers, 
which will increase our current capacity by 7,000 spaces and 
reduce our waiting time for services to no more than 3 months.
    MWR programs provide sailors with a firsthand demonstration 
of the Navy's commitment to their quality of life. MWR offers 
some of the best recreation programs and developmental outlets 
for our sailors' family members. Whatever the need, wherever 
the location, our patrons know they can count on MWR to deliver 
on our promise of high-quality facilities, services, and 
programs. Thank you.
    I would like to submit the rest of my statement for the 
record, and I stand by to answer your questions.
    [The prepared statement of Mr. Patrick can be found in the 
Appendix on page 85.]
    Mr. Wilson. Thank you very much, Mr. Patrick.
    We now have Mr. Timothy R. Larsen.

 STATEMENT OF TIMOTHY R. LARSEN, DIRECTOR, PERSONAL AND FAMILY 
 READINESS DIVISION, MANPOWER AND RESERVE AFFAIRS DEPARTMENT, 
                HEADQUARTERS, U.S. MARINE CORPS

    Mr. Larsen. Chairman Wilson, Ranking Member Davis, 
distinguished members of the subcommittee, thank you for the 
opportunity to represent the Marine Corps and to provide a 
report on our MWR and family readiness programs.
    We thank the Congress, especially this subcommittee, for 
your continued support and your recognition that these are 
critical programs to resiliency and readiness of marines and 
their families.
    We have been engaged in a multiyear effort to transition 
marine and family programs, and this includes the establishment 
of family readiness officers, the redesign of our Exceptional 
Family Member and School Liaison programs, and numerous 
quality-of-life improvements at remote and isolated commands. 
Feedback from marines and families has been very positive, and 
we have built the requirement into our fiscal year 2010 
baseline budget, with an increase of about $110 million.
    The current effort of program transitions as outlined by 
General Amos in his planning guidance is focused on enhancing 
the resiliency of marines and families. The Commandant's 
planning guidance also tasked us with ensuring that marines and 
their families have access to quality facilities and support 
programs as well as the resources necessary to provide a 
quality standard of living. His guidance also directs that we 
review and improve Family Readiness and Transition Assistance 
programs, and we move to more fully integrate behavioral health 
efforts within the Marine Corps.
    We appreciate the support from Congress as well as our 
partnership with the OSD [Office of the Secretary of Defense] 
and the work that we do with sister services, all of which help 
us and contribute to our ability to provide and deliver quality 
services and programs for our marines and sailors. And on 
behalf of marines and families, I thank the subcommittee for 
your oversight and continued support of Marine Corps programs 
and look forward to your questions. Thank you.
    [The prepared statement of Mr. Larsen can be found in the 
Appendix on page 103.]
    Mr. Wilson. Thank you very much, Mr. Larsen, and we now 
have Mr. Charles E. Milam.

STATEMENT OF CHARLES E. MILAM, DIRECTOR OF AIR FORCE SERVICES, 
                  HEADQUARTERS, U.S. AIR FORCE

    Mr. Milam. Thank you, Mr. Chairman and fellow Military 
Personnel Subcommittee members, for the opportunity today to 
present the status of Air Force MWR programs. We appreciate the 
leadership and support for the readiness and quality of life 
for our airmen and their families. The men and women of Air 
Force Services are making remarkable contributions to ongoing 
overseas contingency operations and humanitarian efforts. We 
will not lose sight of our core function to provide mission-
ready airmen; however, in order to focus on the mission, we 
must provide support for our airmen and their families; simply 
put, caring for people.
    In my 25 years in Air Force Services, our scope of 
operations has never been bigger. Our MWR team nearly 48,000 
strong now provides the most robust Caring for People programs 
in recent history. We have stretched our traditional MWR model 
to forge a stronger Air Force community, evolving and expanding 
our services to meet the constantly changing needs of our 
airmen and their families.
    Beyond our traditional combat support and community service 
roles, we are enhancing our efforts in warrior and survivor 
care, family readiness and resiliency, food transformation, 
nonmedical counseling services, outreach programs, inclusive 
recreation, dignified transfers, and much more.
    Last year's Year of the Air Force Family reemphasizes our 
commitment to a strong sense of Air Force community, and Air 
Force Services has key roles in our enduring road map for 
expanded programs and services in health and wellness, airmen 
and family support, education and development, and airmen and 
family housing.
    As we build these better programs, though, we must also be 
vigilant about budget pressures to use fund troop dollars for 
purposes that ought to be supported with appropriated funds.
    As the spouse of an Air Force officer who is currently 
deployed to Afghanistan and the father of two young children, I 
fully understand the challenges that we face and certainly the 
importance of taking care of our airmen and their families.
    Thank you again for the opportunity to be here, and I look 
forward to working with this subcommittee. And I welcome any 
questions you may have.
    [The prepared statement of Mr. Milam can be found in the 
Appendix on page 120.]
    Mr. Wilson. Thank you very much, Mr. Milam, and thank you 
for your family's service, too. And you certainly have a good 
perspective of how important military families are.
    Continuing the tradition of Congresswoman Susan Davis, we 
will have the 5-minute rule, and Mr. Higgins is going to be the 
master of this. And so he is the final arbiter.
    And I want to thank all of you for being here. My interest, 
obviously, as a Member of Congress, and I am very grateful I 
represent Fort Jackson. I am almost as fortunate as 
Congresswoman Hartzler. And I represent Marine Corps Air 
Station Beaufort, Parris Island, Beaufort Naval Hospital, and I 
have--also as a family member I am very grateful. I have got 
three sons who served in the Army National Guard, I have got a 
son who is a doctor in the Navy, and I have got a nephew who is 
currently in the Air Force. So we are a joint service family.
    I certainly think it is a reasonable expectation that 
budget pressures on installation commanders and other managers 
would require a reduction in appropriated funding for MWR 
programs. Those cuts could take the form of an across-the-board 
reduction against all MWR programs being diminished in 
effectiveness. But I hope and suggest that there may be a more 
strategic prospective that protects the funding levels for 
critical programs while eliminating programs that are not as 
important to the welfare of military families, and service 
members and veterans.
    Mr. Gordon, is there a DOD-wide plan to review all MWR 
programs to prioritize which programs should receive 
appropriated funds and which programs that do not match up?
    Mr. Gordon. I think the services have done a very good job 
assessing their programs to getting a sense of the state of 
those programs now and the degree to which they provide 
effective quality of life for our service members and their 
families.
    One thing, I think, to note is that we have to be much more 
sharply focused on what families and service members want, 
first of all. And I had mentioned in my statement about the 
customer satisfaction survey. That helps to a great degree 
because we now know the points of emphasis for our families and 
our service members, what they consider important in terms of 
morale, welfare, and recreation, and will use that.
    But as important, maybe even more important, is our 
leadership, and we have the right leadership in place to make 
those sorts of assessments. You see some of it before you here. 
But that leadership has been very, very focused on ensuring the 
top priority for the human element of what we do in the Defense 
Department. As we all know, we are about machines and people, 
and as we usher in this 21st century, we have been at war now 
for 10 years, this notion of focusing on our human element, our 
service members, their families, because in terms of retention, 
in terms of readiness, it is absolutely essential.
    So with the customer satisfaction survey, with the 
assessment that the services have done in terms of morale, 
welfare, and recreation activities, and then with the success 
of those programs.
    I was in the Army for 26 years, and a dependent as well, 
who lived overseas in the American Augsburg Youth Activities 
Association. So I have seen the transition. I was just at Fort 
Campbell, and the services that are provided today are just 
outstanding. So with respect to leadership, with respect to 
assessment of programs, and with respect to the infrastructure 
in place, I think we are in good shape.
    Mr. Wilson. I appreciate using the word ``respect.'' 
Another way to phrase respect, too, is respect for family 
members, and so that is what you are doing.
    Mr. Gordon. Absolutely.
    Mr. Wilson. Thank you.
    And actually for all other panel members, have there been 
funding reductions already? What is the effect? For each 
member. You can begin, Mr. Milam.
    Mr. Milam. We haven't seen the exact numbers yet, but we 
are working some cut drills just to anticipate some reductions. 
We are focusing on certainly the warfighter first and some of 
our key warrior and survivor care programs for our wounded 
warriors, our mortuary affairs operations, child care. We just 
completed a Caring for People Survey with over 100,000 
responses from the total force to include Guard and Reserve, 
and civilians, and family members. That gives us a good 
indication of where we need to prioritize our resources.
    So without really seeing the specific cuts, we can't 
identify the exact cuts that will take place, but we are 
working the drills as we speak.
    Mr. Wilson. Mr. Gorman.
    Mr. Gorman. Yes, sir. Thank you.
    We acknowledge the environment we are in and the need to be 
ever more fiscally conscious.
    At the same time, we are blessed by the Army leadership's 
commitment to the Army Family Covenant. You are aware that 
General Casey came out of Iraq in April of 2007 to become our 
36th Chief of Staff; believed at that point that the Army was 
out of balance and over the next 6 months put us to work to 
create the Army Family Covenant. The commitment to funding that 
is steadfast.
    In 2007, our family and MWR programs were funded about $749 
million, and on the first of October 2007, the beginning of 
fiscal year 2008, that commitment was doubled to 1.4 million, 
most of which initially in OCO, and in 2009 and beyond has been 
transferred into the base. So we are confident that the 
resources remain in place at least for as far as we can see.
    At the same time, we also accept the responsibility to 
develop what General Casey calls a cost culture where we turn a 
new page in our approach to fiscal management, where it is not 
about executing dollars, but it is about what we get for the 
money we spend in terms of the value we provide our service 
members and their families in exchange or in turn for their 
magnificent service.
    Mr. Wilson. Thank you.
    Either one.
    Mr. Patrick. Yes, sir. The two points I would like to make 
for Navy, listening to the customer, we have been using CFI, 
the same contractor, for about 8 or 9 years now. So we have got 
some pretty good empirical data. We have been using it to shape 
our programs all along.
    Once we focus on which programs are the most important, we 
are switching gears and looking at standardization, and trying 
to deliver the program consistently across our bases, and using 
the best practices of the bases we know do it exceedingly well, 
and try and economize in that fashion.
    Mr. Larsen. Sir, currently in this year, next year's 
budget, we have not taken any reductions in the appropriated 
funds. But last year as we did the POM [program objective 
memorandum], we did take some reductions through the POM 
process.
    What the Marine Corps has done and put in place for the 
future, as we go through developing the budget through the POM 
process, they have a prioritized list of programs, and these 
family programs are on that prioritized list, and before any 
reductions are recommended or projected in those areas, there 
has to be a decision made by the leadership of the Marine Corps 
on whether or not they will take that.
    We are doing an assessment of our programs top to bottom. 
There is about 100 programs. We are looking at all of those 
programs. We are getting input from commanders as they rack and 
stack those programs as far as from their perspective. We are 
getting input from family members. We are also getting input 
from marines. And we are looking at usage data. Before we 
decide we are going to reduce the funding in the programs, we 
want to see what the impact is going to be on mission and on 
the importance of those programs to the marines and families.
    Mr. Wilson. I thank all of you, and we have just been 
joined by Congressman Austin Scott. Congressman Scott also 
represents very significant facilities in the State of Georgia. 
We want to congratulate him, too. A great honor. He was elected 
the president of the freshman class of the 112th Congress, one 
of the largest freshman classes in the history of our Nation. 
So the president of the class is pretty important, but he is 
even more important than usual. So congratulations.
    And we go to Congresswoman Susan Davis.
    Mrs. Davis. Thank you very much.
    In many ways I think you answered one of my first questions 
about the viability of the programs, because one of the 
concerns that I think we have is that there are some 
individuals, and I am sure some Members of Congress as well, 
perhaps some new Members, who would question whether or not we 
need to have commissaries and exchanges for our military 
families, and whether or not it wouldn't be fine for people to 
go shop in local community stores.
    I think the issue that sometimes gets lost is that the 
nonappropriated funding that comes from these activities 
impacts the programs that you have all been just talking about. 
So I wonder if there is--perhaps one of the ways of helping us 
as well as we look to those programs and which ones have 
greater viability perhaps than others is what would it look 
like if, in fact, we didn't have that kind of nonappropriated 
funding, we didn't have those resources? Is there a way that 
you would talk about that so that people would understand how 
important they are?
    Mr. Gordon. Right. You know, we build a sense of community 
with those programs first. It is a military community that has 
been at war for a long period of time. Sixty to seventy 
percent, depending on the service, of our service members and 
their families live off post. These programs bring them back 
together when we are talking about our commissaries and our 
exchanges. It is a place of meeting not only for our Active 
Duty, but for our Guard and Reserve and our retired service 
members. So that sense of community is absolutely essential.
    But there is the effectiveness issue as well in terms of 
the 31.5 percent savings, in terms of a benefit for our 
commissaries, the fact that we have 923 child development 
centers where we can have our 180,000 of our 200,000 children 
who need that have a place to go. So it is a workforce issue as 
well.
    I think it is an ecosystem that we have built. And within 
that ecosystem we have the efficiency, and we have the 
effectiveness, and we have the equity, and with this team, I 
would argue, we have the innovation to be able to build that 
sense of community to sustain readiness and retention.
    Mrs. Davis. I don't know if anybody else wanted to comment 
further. Yes, Mr. Larsen.
    Mr. Larsen. Yes, ma'am.
    To have these programs is part of the--I think they are 
critical. They are essential to the way we run the other 
programs. The nonappropriated fund programs support the other 
family programs that--some of which we get some appropriated 
funds for; some of them, depending on what category they are 
in, we share the funding between appropriated and 
nonappropriated funds. But as part of the nonpaid compensation 
that we get for the service members, it is critical for them.
    We provide a savings and a value in the exchanges that they 
are able to buy things at about 27 percent less than in 
retailers outside the gates. So there is a real value to that, 
especially the young family members. The young service members 
with families really realize that benefit. We have programs in 
place like ``My Cost Is Your Cost,'' where we sell things at 
cost, whether diapers, formula, baby food, some of those other 
items like that, milk and eggs, milk and bread and things like 
that, to really help defray some of the cost of living that 
some of these young families are experiencing.
    The dividend that we realize from that funds these 
programs, and to take that away or to remove the appropriated 
funding from that would really restrict the ability to generate 
the nonappropriated funds, and it would cause us to have to put 
more money back into the programs.
    So the connection between the appropriated, nonappropriated 
funding for these programs is very important. It is critical to 
our ability to provide these services.
    Mr. Gorman. I would just add, and I concur with everything 
said, that from a financial perspective, we earn about $200 
million a year on our garrisons in nonappropriated funds to be 
used to support families. About 75 percent of that money is 
provided by the dividend from the Army and Air Force exchange 
system. So the continued viability of both the commissary and 
the exchange system is critical.
    I would also add that the lion's share of our appropriated 
funds are spent in recreation, but even more so in Army 
Community Services, which provides counseling and family 
services, and our Child and Youth Services program.
    The survey of Army families, just completed this past 
summer, indicates that over 60 percent of our families are 
pleased with the way the Army is treating them after 9 years of 
war. And I think that really speaks for itself.
    Our leadership, General Casey and Lieutenant General Lynch, 
the Commander of the Army Installation Management Command, 
frequently say that our Army is not going to break because of 
its soldiers, but it might break because of its families. So 
therefore, we need to stay resolute in our commitment to 
funding those things that help them feel good about who they 
are, what they do, and where they serve. Thank you.
    Mr. Milam. I would just echo everything that has been said, 
and certainly the dividend stream from AAFES [Army and Air 
Force Exchange Service] has an enormous impact on the quality-
of-life programs and construction projects that we have in the 
Air Force. Taking that away or impacting that in any way would 
have a huge impact on quality-of-life programs.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you.
    And Congressman Allen West.
    Mr. West. Thank you, Mr. Chairman. And it really is an 
honor to sit here before each and every one of you. And having 
done 22 years of Active Duty service myself, coming from a 
father who served in World War II, a mother who did civilian 
service for 25 years with the Marine Corps district 
headquarters in Atlanta, an older brother who served in 
Vietnam, a nephew who is a captain serving in Fort Knox right 
now, and also a wife who is a military dependent--her father 
served two tours in Vietnam, two of her brothers served in the 
Air Force--and, of course, both of my daughters, who are 17 and 
14 now, born out at Fort Riley, Kansas, spent time in Fort 
Riley, Fort Leavenworth, Camp Lejeune, and then also Fort Hood, 
Texas. So what you are talking about here is very near and dear 
to my heart, because my two daughters have been beneficiaries 
of the great Army Morale, Welfare, and Recreation programs. And 
also I spent 3 years working for the Installation Management 
Command [IMCOM] after I retired. So please give my regards to 
all of my friends at IMCOM out there at San Antonio Texas.
    But one of the things I would like to bring up a question. 
This past Saturday I had the opportunity of attending a Navy 
League event down at Fort Lauderdale, and the Chief of Staff of 
the Army USSOUTHCOM--I mean, USSOUTHCOM [United States Southern 
Command] was there, Major General Ayala. We just talked about 
commissaries, and one of the things he brought up is the amount 
of soldiers, sailors, airmen, marines, and coastguardsmen we 
have in and around that headquarters. And he asked if they 
could get the opportunity of having a commissary built there 
for them, because there is something about a commissary system. 
It is not just about people going to a Walmart, or Costco, or 
whatever. It is a camaraderie that a commissary allows you to 
have, and then also when you think about a lot of the retirees 
there.
    So one of the things I want to ask is if you could do that 
assessment of looking at having a commissary system down there 
for the United States Southern Command, because I think it is 
very important. I think that when you look at the cost-benefit 
analysis, you will see that you could generate a lot of funds 
with the retired community down there.
    My real question is this: I saw how the Army on-post 
housing transformed when we went to the privatized system, and 
that was a great system because you were able to do a lot of 
things as far as the repairs and the responsiveness to the 
servicing of those quarters. And so I would ask is that 
something that we have shared across all of our services to 
look at how we can improve the responsiveness of our on-base, 
on-post installation housing?
    Thank you, Mr. Chairman.
    Mr. Gordon. Thank you, sir, and thank you for your family's 
service as well.
    I am going to let the services answer about how much they 
are sharing among themselves, but we are trying to institute 
more programs actually at the Department of Defense where we 
are actually bringing together the services to exchange 
information, and ideas and best practices. We have a service-
to-service meeting now where the Deputy M&RAs [Assistant 
Secretaries for Manpower and Reserve Affairs] come together. A 
real success story, for example, is the Army Spouse Employment 
program, where the Army talked about that program, and we are 
looking at making that program purple now and expanding that to 
all military spouses in terms of availability for jobs.
    So I think with this new leadership, we are much more apt 
to get together to start to exchange ideas and best practices 
that are working. But let me defer to the services in terms of 
specifically housing.
    Mr. Larsen. Well, I don't think most of us on this panel 
don't really do housing, but I will just give you a couple of 
points that I might be aware of.
    As a former installation commander, I was a little familiar 
with some of the issues with housing, but I would offer that 
all of the services have taken advantage of the PPV [public-
private ventures] and be able to do public-private ventures and 
improve the housing on the bases. If you go around and look 
across the board, when we have town hall meetings and we meet 
with service members, they routinely are very appreciative of 
what the services have done for them as far as the housing is 
concerned. And so I think we made huge progress in that area.
    We are doing similar things in lots of other areas to see 
if we can get joint ventures with private companies to help us 
do different activities on our installations. So I think, in 
that regard, it does have some applicability to the members of 
the panel here. And so we are working together on a lot of 
these things. We have several efforts that are ongoing to share 
information. Actually, on a routine basis, the exchanges and 
commissaries are working together to try to improve the quality 
of services we provide to service members.
    Mr. Milam. The Air Force has undergone similar 
privatization on the installations, which, of course, more and 
more Air Force personnel and families have moved off base as a 
result of that.
    One of our challenges from a quality-of-life and an MWR 
standpoint is how do we reach those families? And it almost 
becomes the model of the Guard and Reserve where we have our 
military living out in communities, and where we have less 
focus on the bricks-and-mortar piece of the installation on the 
base.
    What we do know through several surveys is at the end of 
the day, our military members are going home if they live off 
base. They are not hanging out at the clubs like they used to 
back in the day. They are going back where their families live. 
And we also realize that that sense of community is established 
in the neighborhoods that you live in, where you go to church, 
where your kids go to school. So what we are challenged with as 
we look through our programs and our efficiency drills is how 
we reach them and continue to support them with our MWR 
programs.
    Mr. West. Thank you, Mr. Chairman. I yield back to you.
    Mr. Wilson. Thank you very much.
    We next go to Congresswoman Madeleine Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, and I am very 
pleased to be on this personnel committee again. I was with you 
last time, and, of course, Mrs. Davis.
    I have a couple of very important questions for Guam. The 
first question is for Secretary Gordon or Mr. Patrick, and it 
is regarding a contracting issue for MWR services on Guam. I 
understand that your office may not be the contracting 
authority, but it will certainly impact the quality of MWR 
services on Guam and the relationship between MWR services and 
our local business community.
    I understand that there may be a sole sourcing of the MWR 
service contract to an off-island firm when local companies 
that are HUBZone [Historically Underutilized Business Zone] 
certified are willing to do the work and are, in fact, 
currently performing this contract. I further understand that 
the contract may be sole-sourced because of time constraints or 
personnel shortages at the contracting authority, which I 
believe is FISC [Fleet and Industrial Supply Center] in Pearl 
Harbor.
    This is simply unacceptable to me, gentlemen, and I have 
long stated that all contracts out in Guam should be 
competitively awarded. So can I get your commitment to work 
with our local MWR folks and the Joint Region Marianas to 
address this matter? I want to ensure that we have fair 
competition for this contract. The people of Guam are very 
concerned about it, and there will be other contracts that will 
be implemented in the future.
    So, Mr. Gordon, could I get your answer on that?
    Mr. Gordon. Thank you very much, and I will certainly look 
into it. Competition is important.
    Ms. Bordallo. Very good.
    Mr. Gordon. I will take this for the record as well to dig 
into it. I will look into it.
    [The information referred to can be found in the Appendix 
on page 145.]
    Ms. Bordallo. Very good. Because this was a competitive 
awarded contract, and now all of a sudden it is sole-sourced.
    And the second question I have--Mr. Chairman, do I have 
time for a second?
    Mr. Wilson. Yes.
    Ms. Bordallo. Good.
    The military on Guam has a strategically important 
footprint and perform critically important missions for our 
country every day. MWR plays an important role in sustaining 
the readiness of the force, and to that extent I am wondering 
what more proactive efforts can be taken to work with the 
airlines that fly in and out of Guam to provide improved 
discounted offers for morale leave? I do know that Continental 
Airlines offers some discounted ticket prices, but service 
members on the bases still have a difficult time taking 
advantage of Guam's location and proximity to other Asian 
destinations because of the general high fares out there. So is 
this something that could be looked into further? And, Mr. 
Gordon, you or anyone else that could answer that.
    Mr. Gordon. I think there is a larger issue here, too, and 
I am glad that you brought that up. And the question is how we 
are partnering with our nonprofit and our commercial sectors 
given this new fiscal austerity that we are going to witness. 
So that is certainly worth looking into.
    At the same time, I think the good news story is we are 
looking and reaching out for those sorts of partnerships. A 
perfect example is our child care arena where we are working 
with 13 States, for example, to do something about the shortage 
of roughly about 37,000 slots for child care. And it is these 
sorts of partnerships where we can once again reduce, for 
example, costs for our service members and their families, and 
at the same time get some efficiencies as a result that are 
worth looking into. So I will certainly do that as well.
    Ms. Bordallo. Good.
    I think I have just a couple of seconds left here. This 
question, the third one, is for Mr. Milam with the Air Force. 
In your testimony you discussed the Food Transformation 
Initiative in the Air Force. Can you discuss to what extent 
appropriate sustainability practices are utilized in this 
initiative? Are you looking at providing food sources that 
within a 150-mile radius as is generally accepted 
sustainability practice?
    Mr. Milam. Ma'am, let me preface my response by explaining 
why we started Food Transformation, why we got into this. We 
are challenged, we have a platform, a food service delivery 
platform, in the Air Force that is over 60 years old. It has a 
32 percent utilization rate, it costs over $20 per plate to 
feed an airman, and, quite frankly, has the lowest customer 
satisfaction rate out of any of our MWR programs, about 67 
percent. That is a D. That is not acceptable. So we are taking 
a hard look at transforming, how we do--how we deliver food in 
the Air Force.
    To certainly improve the quality, the variety and the 
availability, we have contracted with ARAMARK Corporation, and 
we started out at six test locations that we have out there. 
The feedback that we have so far has been very positive. Across 
the board we are looking at about a 22 percent increase in 
utilization. In fact, last week I was at MacDill Air Force Base 
at Tampa, and, speaking with the personnel down there, they had 
an average customer rate of about 350 to 400. They are up to 
1,300 customers per day. One of the problems they have is the 
throughput of bringing those people through, but the quality 
has certainly improved.
    We are delivering this Food Transformation effort through 
the contract, through a delivery order focusing on both the 
appropriated fund, the flight line feeding, as well as some NAF 
functions that they have out there. So there is a benefit 
certainly to the military as is the contractor.
    Overall there will be a savings with this initiative of 
about 25 percent for appropriated funds. So we are not only 
saving money, but we are improving the quality, the 
availability, and the variety of food. On average, we have 
increased food service at these locations from 66 hours per 
week to 112 hours per week.
    This is a model that we want to adapt across the board. 
There is currently a GAO [Government Accountability Office] 
review, and I think they are going to report out to Congress 
around April time frame. We would like to continue our Food 
Transformation effort at other locations in the Air Force.
    Ms. Bordallo. Good. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Wilson. Thank you.
    Congresswoman Vicky Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. It is an honor to 
be on this subcommittee. I am glad to be here today, and I am 
proud to represent Missouri's Fourth Congressional District, 
not only Fort Leonard Wood, but also the Missouri National 
Guard headquarters and Whiteman Air Force Base.
    And as a former family consumer sciences teacher, child 
development is very important to me, and the family is very 
important, so I appreciate all of your priority and what you do 
to make family a priority in the armed services.
    Mr. Milam, in looking at some data that was provided for us 
ahead of time regarding the childcare facilities, I just wanted 
to ask a question a little bit about the percentage rate for 
Category B funding. I know that at Whiteman Air Force Base we 
are very pleased with the stellar, brand new childcare facility 
there, the Susie Skelton Child Care Center. It is just 
absolutely beautiful, and I know it is very well received there 
on base. But from the data that I look at, it looks like that 
the Air Force overall has only a 56 percent investment in child 
care, and I just wondered what your thoughts were, given how 
important it is. The Air Force seems to be a little out of step 
with providing services, contributing less funds, than the 
other services are to this category. So what are your thoughts 
on that, and what is the Air Force doing?
    Mr. Milam. The fees are matching, where we get 50 percent 
appropriated fund support, and then the parent fees are matched 
50/50. So we are a little bit above, I believe, the OSD 
requirement for that.
    Certainly child care is very important in the military, and 
I have two children age 5 and 6 who are in the program, so I 
fully understand that. When we survey our parents, certainly 
the most important thing for them is the availability of child 
care. So if someone gave me more money, I think one of the 
first things I would do is look at the availability in 
increased spaces, not only spaces in a physical structure on 
the installation, but perhaps providing additional childcare 
subsidies for our Guard and our Reserve units that are out 
there.
    I believe our fees are fair, they are in line with the new 
DOD fees, with the nine-tier structure, and the support that we 
currently provide in the APF [appropriated funds] meets the 
standard. So what we are focusing on now, ma'am, is to ensure 
that we can deliver more child care, availability of child 
care, to our airmen and their families. That is the piece that 
will reduce the stress on our families is having child care. 
Now, certainly the cost of child care is a factor when we 
survey our families, but it is not the factor.
    Mrs. Hartzler. So I need a little clarity. I am just new 
here. I thought the goal was 65 percent, and it is 56 percent. 
So you are saying that you are not below the goal?
    Mr. Milam. The matching fee is 50/50. The goal to Category 
B activities is 65 percent. We are meeting that. Yes, ma'am.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much.
    We now have Congressman Austin Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And Mr. Gordon and Mr. Milam, I represent Robins Air Force 
Base in Georgia. And we are blessed in Georgia with many bases 
and certainly want to work with you to maintain that.
    And my question really gets back to the MWR and any changes 
that are made. What guidance is the DOD going to give to the 
base commanders with regard to those changes, or are the 
individual commanders going to be allowed to work with their 
personnel and determine what changes should be made to 
accommodate those budget-related issues?
    Mr. Gordon. From the DOD perspective, ensuring a 
consistency, first of all, that we are meeting basically 
category A, or category B, or category C, very important, but 
that consistency in policy as well. At the same time--and I 
then will let Mr. Milam discuss the Air Force--commanders have 
a great responsibility, and they are on the ground and really 
do understand the needs and requirements of their families and 
their service members.
    I recently visited both Fort Carson and Fort Campbell, and 
one of the instrumental aspects in terms of providing care is 
also an outreach to community. It is not just about what is 
going on, as we all know, on that post or base, but how well 
the command integrates with the community, because, once again, 
most of our service members and their families live off post. 
They live off base. So those commanders and that sort of 
assessment is absolutely instrumental.
    At the same time I do think we have the policies in place 
to ensure a consistency across the force, and we have an 
emphasis basically on our service members and their families in 
terms of the overall platform of morale, welfare, and 
recreation and its importance to readiness and recruitment.
    With that, I will turn it over to the Air Force, and we can 
get more specific.
    Mr. Milam. Certainly the programs that we look at as far as 
the efficiencies at the Air Force strategic level, there is not 
one size that fits all that I have found across our 
installations. In many respects when we have an issue with 
child care at one base, we may not have that at another base, 
or a recreation program may be vibrant at one location and not 
the other. So it is difficult to say, let us trim these 
programs across the board. That is not a fair assessment. What 
we have to do is look at the installation specifically. And I 
think the installation commander certainly has the authority to 
make his or her own changes.
    Food transformation, for example, is a very, very positive 
impact on the airmen, but the current dining facility at Robins 
may certainly fit the needs or may be suitable for those airmen 
that we have today.
    So, again, whatever changes we make in the Air Force may 
not be a blanket change across the Air Force. I think the 
installation commander will still have the authority to make 
those changes.
    Mr. Scott. If I could just follow up with that. I do 
believe that the local base commanders in working with their 
people should be allowed the flexibility there, and I 
appreciate that and hope that we continue to pursue that. And 
just what a member of the Navy on the west coast desires as far 
as recreational facilities may be very different from what a 
member of the Air Force in central Georgia desires. And I think 
that if those decisions are left to the local base commander 
instead of coming out of Washington, I think that is the best 
way to serve our men and women in uniform on those bases. Thank 
you.
    I yield back, Mr. Chairman.
    Mr. Wilson. We are very fortunate. We have just been 
joined--I don't know if he is ready--by Congressman Dr. Joe 
Heck from the Republic of Nevada. So we are very grateful to 
have--Congressman, if you would like to ask questions, we are 
doing--and this is the hearing in regard to morale, welfare, 
and recreation programs, and if you would like to ask any 
questions, we would be happy to hear from you.
    Dr. Heck. I will waive the motion.
    Mr. Wilson. And actually you have come right at the time as 
we prepare to adjourn. But it is really very appropriate that 
you came, because I was going to mention as we conclude how 
much I appreciate the freshmen participating. So thank you very 
much, and I hope that you find your experience on this 
committee, serving on the Armed Services Committee, rewarding. 
I know that as Congresswoman Davis was chairman, she certainly 
made sure that everybody had the opportunity to participate.
    And so I thank all of you. And Colonel West was here 
earlier.
    So a point that was made, Mr. Gordon, by you, and that is 
that your programs, as described so well today, are 
instrumental for a sense of community, which is the military. 
And then Colonel West was pointing out camaraderie, and to me I 
think of people serving in the military as part of the military 
family, and it is a military family that is providing for young 
people in families opportunity for young people to serve to the 
highest and fulfill to the highest of their ability. So I want 
to thank you for letting that occur.
    And we do have time for Mrs. Davis to ask another question 
as we get ready to conclude. And then, Dr. Heck, if you do want 
to participate, we would be happy for a question, but it is 
your call.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, Dr. Heck, surely this might give you a little 
breathing space if you had a question. One or two here really. 
This goes to you, Mr. Gordon.
    One of the concerns I hear frequently, in fact I just heard 
it the other day when I was meeting with a number of sailors at 
32nd Street in San Diego, has to do with special needs children 
and the families, the challenges that they face. During the 
National Defense Authorization Act review and our passage of 
that for 2010, we had a requirement in the bill that 
established the Office of Community Support for Military 
Families with Special Needs under the Under Secretary of 
Defense for Personnel and Readiness. I understand that this may 
not be directly in your lane; however, I want to ask you a 
little bit about any of your involvement in that, because it 
does feel as if those two departments, at least, would possibly 
be working together and developing that program.
    What has been your involvement, and where are we?
    Mr. Gordon. Good question. And the office does come under 
Military Community and Family Policy. It is run by Dr. Rebecca 
Posante. Where we are is we have staffed up. We have staffed up 
the office. She has her full complement basically of staff 
members.
    Let me preface, moving on, by saying before I came to this 
job, I was in the nonprofit community where we were very 
focused on youth with disabilities. And so I don't come to this 
with a degree of naivete about what we need to do in this area, 
because prior to this very focused on how we empower youths 
with disabilities, how we make people aware of their needs and 
what they can do in our society in terms of making it very 
productive, but also their needs in terms of, you know, key 
aspects based on what the disability is. And so in terms of 
special needs, we have got an office now with the kind of 
leadership that can focus on those key areas for our service 
members who have families with special needs.
    So I would say first we have staffed up with the right 
people. I would say, second, we are going to start conducting, 
and we are engaged in this now, a survey of what those needs 
might be and how we might best address them.
    One of the issues for our service members and their 
families is education, it is a perfect example, where our 
children are going with special needs and whether they are 
getting the quality care that they need, and if there are 
alternative ways of doing that better. So that is one of the 
things that we are going to look at.
    But I am happy to say that we have got the staff in place, 
we are coming up with a blueprint for action, and we look 
forward to working with the services and Congress on that.
    Mrs. Davis. Great. I am glad to hear that, that it is 
moving along. In some ways the establishment of that office was 
also because we knew it is pretty difficult to answer all the 
needs of all the families out there, but if we have one 
particular place, that can be helpful.
    Did the DOD then provide the $50 million that was directed 
in the law to that office? Is the money there, and is it being 
utilized?
    Mr. Gordon. Good question. I have to take that for the 
record, too, to make sure that it is. We have gotten what we 
need at this point in time to really get a good start. Whether 
the full funding was provided, let me take that for the record 
and get back to you.
    [The information referred to can be found in the Appendix 
on page 145.]
    Mrs. Davis. Great. Thank you.
    I also wanted to mention we know that there was an Army 
family conference just recently, and they highlighted at that 
conference a number of needs. The high suicide rate, the 
lengths of deployment, short dwell time, to lack of PTSD [post-
traumatic stress disorder] screening and rising divorce rates 
are some of the top areas within the Army. So I am wondering, 
Mr. Patrick, and Mr. Larsen, and Mr. Milam, if you have also 
identified, say, the top three or four concerns within your 
service, what they are.
    Mr. Milam. Yes, ma'am. We have a similar annual conference, 
it is our Caring for People conference, and last year we had a 
special group for the special needs families. They have 
identified several challenges.
    I am proud to say that we now have a trained Exceptional 
Family Member program coordinator at all of our installations. 
We hired 35 full time, those with installations that had 175 or 
more special needs families; and those that had less, it became 
an additional duty at the Airman and Family Readiness Centers.
    Beginning next month we will have a robust respite program 
for special needs families, up to 20 hours of care per week to 
give those families a break. And this is all about reducing the 
stress on those families, as you mentioned, and how we can do 
that.
    But having those Exceptional Family Member program 
coordinators at the installation now takes some of the burden 
away from the families when they move from base to base. They 
can go to that single point of contact and have all of their 
personnel-related questions, their medical-related questions, 
and get pointed in the right direction, where before they never 
really had those services. So we have come a long way in the 
Air Force with a long way to go.
    Mrs. Davis. Anybody else want to comment quickly? I think 
my time is up.
    Mr. Larsen. Yes, ma'am, very quickly.
    The Exceptional Family Member program in the Marine Corps 
has been one of the priorities of the previous Commandant, and 
the passion for that program is shared by the current 
Commandant and his wife. The enrollment in the program is up by 
about 43 percent over what it was. If you look at 2001, we had 
about 4,500 people that were enrolled in the Exceptional Family 
Member program. Today there are not quite 10,000. So there is a 
significant increase. We think there is still room to grow 
based on the propensity of some of these conditions that could 
be as much as about 16,000, so there is still room to continue 
to grow.
    We have case workers, 1 per 225. We have respite care that 
is provided to all the members--the service members, families 
that are in the program, 40 hours a month for respite care. So 
we are doing a number of things to help address those needs.
    Additionally, on the issue of suicide, and dwell time and 
some of those other factors, they have a significant impact on 
the readiness of the force and the ability for us to regenerate 
and be resilient. If you look at the Marine Corps this year, 
and we don't have a silver bullet, and we don't know the 
answer, but our suicide rate--our suicide rate is down, and the 
numbers are down from 62 last year to 39 this past year. So it 
is significantly reduced. Why? Because the leadership has been 
focused on it. The commanders are involved. We have done 
training of the individual marines. There is peer-to-peer 
training and different things that we have done. We have put 
things in place to really try to get--to make an impact on that 
serious situation, and I think we are making progress. We are 
not advertising that we have solved suicide or anything like 
that, but because of the engaged leadership of--the senior 
leadership of the Marine Corps, we have made an impact in some 
of those areas.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you.
    Congressman Joe Heck.
    Dr. Heck. Thank you, Mr. Chair. My apologies to you, and 
the committee members and the panel for my tardiness, but I am 
quickly becoming well versed in conflicting subcommittee 
meetings.
    Mr. Gorman, my question is for you, hello, thank you for 
being here. I quickly glanced through your packet, and I saw 
that you mentioned--I don't know if you did in your testimony 
again, but in the writing about the Army OneSource Program. 
From someone whose family has used it, having been a deployed 
service member and relied on Army OneSource for simple things 
like finding a plumber when I wasn't home to fix a problem, I 
think that is a great program. I also saw that you refer to the 
Army Community Covenant program, excellent program. I am 
actually going to be participating in a covenant signing this 
weekend in Pinellas Park, Florida.
    What I didn't see in there, and I hope this in your lane, 
the Strong Bonds program.
    Mr. Gorman. It touches us. Strong Bonds is actually a 
chaplains' program. We are their number one assist, if you 
will. Three of our four Armed Forces recreation centers, in 
Garmisch, Germany; in Seoul, Korea; and at the Haleakala in 
Honolulu, Hawaii, are the major sources of where those events 
are held.
    General Chiarelli, the Vice Chief of Staff in the Army, at 
the Army Family Action Plan meeting 3 years ago, I guess it 
was, and in that process we always asked the delegates--we just 
finished this year's program 2 weeks ago--give us five things 
that are working and five that are not. From one year to the 
next, behavioral counseling, or lack of it, went from being the 
most significant issue to not even on the list. General 
Chiarelli tied that to two reasons: One, through the graces of 
the OSD, we have the military family life consultants and 
Strong Bonds. It attempts to get in a collegial way at those at 
greatest risk for marital problems. The entire Army is focused 
on suicide reduction through a wide range of resiliency 
programs.
    So I couldn't say enough for Strong Bonds. We don't per se 
operate the program, but we are in support in a big way.
    Dr. Heck. And I appreciate it. It is a phenomenal program, 
and it goes exactly to the points that you mentioned about 
trying to reintegrate deployed family members as well as 
decreasing some of the suicide risks.
    Do you see, if possible, a bigger role for your 
organization in trying to reach out and provide more of those 
programs in a more timely, cost-effective manner?
    Mr. Gorman. I see our role like our overarching challenge 
to ever be more efficient with the dollars we are blessed to 
have; to help the chaplains use each dollar more effectively 
for the purpose that they have got them, which is to identify 
the challenges our young men and women and their families feel 
and help address them.
    Dr. Heck. Thank you, Mr. Chairman.
    Thank you, Mr. Gorman.
    I yield back.
    Mr. Wilson. Thank you, Dr. Heck, for your being so 
proactive and involved. This is great.
    I would like to thank all of our panelists for being here 
today, the witnesses. And we appreciate all that you do for our 
service members, military families, and veterans. And at this 
time we shall be adjourned.
    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            February 9, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 9, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4859.001
    
    [GRAPHIC] [TIFF OMITTED] T4859.112
    
    [GRAPHIC] [TIFF OMITTED] T4859.113
    
    [GRAPHIC] [TIFF OMITTED] T4859.002
    
    [GRAPHIC] [TIFF OMITTED] T4859.003
    
    [GRAPHIC] [TIFF OMITTED] T4859.004
    
    [GRAPHIC] [TIFF OMITTED] T4859.005
    
    [GRAPHIC] [TIFF OMITTED] T4859.006
    
    [GRAPHIC] [TIFF OMITTED] T4859.007
    
    [GRAPHIC] [TIFF OMITTED] T4859.008
    
    [GRAPHIC] [TIFF OMITTED] T4859.009
    
    [GRAPHIC] [TIFF OMITTED] T4859.010
    
    [GRAPHIC] [TIFF OMITTED] T4859.011
    
    [GRAPHIC] [TIFF OMITTED] T4859.012
    
    [GRAPHIC] [TIFF OMITTED] T4859.013
    
    [GRAPHIC] [TIFF OMITTED] T4859.014
    
    [GRAPHIC] [TIFF OMITTED] T4859.015
    
    [GRAPHIC] [TIFF OMITTED] T4859.016
    
    [GRAPHIC] [TIFF OMITTED] T4859.017
    
    [GRAPHIC] [TIFF OMITTED] T4859.018
    
    [GRAPHIC] [TIFF OMITTED] T4859.019
    
    [GRAPHIC] [TIFF OMITTED] T4859.020
    
    [GRAPHIC] [TIFF OMITTED] T4859.021
    
    [GRAPHIC] [TIFF OMITTED] T4859.022
    
    [GRAPHIC] [TIFF OMITTED] T4859.023
    
    [GRAPHIC] [TIFF OMITTED] T4859.024
    
    [GRAPHIC] [TIFF OMITTED] T4859.025
    
    [GRAPHIC] [TIFF OMITTED] T4859.026
    
    [GRAPHIC] [TIFF OMITTED] T4859.027
    
    [GRAPHIC] [TIFF OMITTED] T4859.028
    
    [GRAPHIC] [TIFF OMITTED] T4859.080
    
    [GRAPHIC] [TIFF OMITTED] T4859.081
    
    [GRAPHIC] [TIFF OMITTED] T4859.082
    
    [GRAPHIC] [TIFF OMITTED] T4859.083
    
    [GRAPHIC] [TIFF OMITTED] T4859.084
    
    [GRAPHIC] [TIFF OMITTED] T4859.085
    
    [GRAPHIC] [TIFF OMITTED] T4859.086
    
    [GRAPHIC] [TIFF OMITTED] T4859.087
    
    [GRAPHIC] [TIFF OMITTED] T4859.088
    
    [GRAPHIC] [TIFF OMITTED] T4859.089
    
    [GRAPHIC] [TIFF OMITTED] T4859.090
    
    [GRAPHIC] [TIFF OMITTED] T4859.091
    
    [GRAPHIC] [TIFF OMITTED] T4859.092
    
    [GRAPHIC] [TIFF OMITTED] T4859.093
    
    [GRAPHIC] [TIFF OMITTED] T4859.094
    
    [GRAPHIC] [TIFF OMITTED] T4859.095
    
    [GRAPHIC] [TIFF OMITTED] T4859.096
    
    [GRAPHIC] [TIFF OMITTED] T4859.097
    
    [GRAPHIC] [TIFF OMITTED] T4859.098
    
    [GRAPHIC] [TIFF OMITTED] T4859.099
    
    [GRAPHIC] [TIFF OMITTED] T4859.100
    
    [GRAPHIC] [TIFF OMITTED] T4859.101
    
    [GRAPHIC] [TIFF OMITTED] T4859.102
    
    [GRAPHIC] [TIFF OMITTED] T4859.103
    
    [GRAPHIC] [TIFF OMITTED] T4859.104
    
    [GRAPHIC] [TIFF OMITTED] T4859.105
    
    [GRAPHIC] [TIFF OMITTED] T4859.106
    
    [GRAPHIC] [TIFF OMITTED] T4859.107
    
    [GRAPHIC] [TIFF OMITTED] T4859.062
    
    [GRAPHIC] [TIFF OMITTED] T4859.063
    
    [GRAPHIC] [TIFF OMITTED] T4859.064
    
    [GRAPHIC] [TIFF OMITTED] T4859.065
    
    [GRAPHIC] [TIFF OMITTED] T4859.066
    
    [GRAPHIC] [TIFF OMITTED] T4859.067
    
    [GRAPHIC] [TIFF OMITTED] T4859.068
    
    [GRAPHIC] [TIFF OMITTED] T4859.069
    
    [GRAPHIC] [TIFF OMITTED] T4859.070
    
    [GRAPHIC] [TIFF OMITTED] T4859.071
    
    [GRAPHIC] [TIFF OMITTED] T4859.072
    
    [GRAPHIC] [TIFF OMITTED] T4859.073
    
    [GRAPHIC] [TIFF OMITTED] T4859.074
    
    [GRAPHIC] [TIFF OMITTED] T4859.075
    
    [GRAPHIC] [TIFF OMITTED] T4859.076
    
    [GRAPHIC] [TIFF OMITTED] T4859.077
    
    [GRAPHIC] [TIFF OMITTED] T4859.078
    
    [GRAPHIC] [TIFF OMITTED] T4859.079
    
    [GRAPHIC] [TIFF OMITTED] T4859.029
    
    [GRAPHIC] [TIFF OMITTED] T4859.030
    
    [GRAPHIC] [TIFF OMITTED] T4859.031
    
    [GRAPHIC] [TIFF OMITTED] T4859.032
    
    [GRAPHIC] [TIFF OMITTED] T4859.033
    
    [GRAPHIC] [TIFF OMITTED] T4859.034
    
    [GRAPHIC] [TIFF OMITTED] T4859.035
    
    [GRAPHIC] [TIFF OMITTED] T4859.036
    
    [GRAPHIC] [TIFF OMITTED] T4859.037
    
    [GRAPHIC] [TIFF OMITTED] T4859.038
    
    [GRAPHIC] [TIFF OMITTED] T4859.039
    
    [GRAPHIC] [TIFF OMITTED] T4859.040
    
    [GRAPHIC] [TIFF OMITTED] T4859.041
    
    [GRAPHIC] [TIFF OMITTED] T4859.042
    
    [GRAPHIC] [TIFF OMITTED] T4859.043
    
    [GRAPHIC] [TIFF OMITTED] T4859.044
    
    [GRAPHIC] [TIFF OMITTED] T4859.045
    
    [GRAPHIC] [TIFF OMITTED] T4859.046
    
    [GRAPHIC] [TIFF OMITTED] T4859.047
    
    [GRAPHIC] [TIFF OMITTED] T4859.048
    
    [GRAPHIC] [TIFF OMITTED] T4859.049
    
    [GRAPHIC] [TIFF OMITTED] T4859.050
    
    [GRAPHIC] [TIFF OMITTED] T4859.051
    
    [GRAPHIC] [TIFF OMITTED] T4859.052
    
    [GRAPHIC] [TIFF OMITTED] T4859.053
    
    [GRAPHIC] [TIFF OMITTED] T4859.054
    
    [GRAPHIC] [TIFF OMITTED] T4859.055
    
    [GRAPHIC] [TIFF OMITTED] T4859.056
    
    [GRAPHIC] [TIFF OMITTED] T4859.057
    
    [GRAPHIC] [TIFF OMITTED] T4859.058
    
    [GRAPHIC] [TIFF OMITTED] T4859.059
    
    [GRAPHIC] [TIFF OMITTED] T4859.060
    
    [GRAPHIC] [TIFF OMITTED] T4859.061
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 9, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4859.108
    
    [GRAPHIC] [TIFF OMITTED] T4859.109
    
    [GRAPHIC] [TIFF OMITTED] T4859.110
    
    [GRAPHIC] [TIFF OMITTED] T4859.111
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 9, 2011

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MRS. DAVIS

    Mr. Gordon. Although Section 563 (c) of the NDAA 2010 authorized 
$50M for the programs for Fiscal Year 2010 appropriations did not 
follow. However, the Department took the following actions to comply 
with the NDAA:

    <bullet>  Provided the Services bridge funding in FY 2010 and FY 
2011 to establish case managers (120) within the Exceptional Family 
Member Program (EFMP)
    <bullet>  Drafted a new policy for the Exceptional Family Member 
Program (EFMP). The policy will include elements regarding the 
assignment of members with families with special needs and support such 
families. We anticipate a draft will be ready for review by the 
Military Departments Service review in Spring 2011.
    <bullet>  Initiated three research studies:
        --  Availability and accessibility of services for children 
        with autism (due in spring 2011).
        --  Availability and accessibility of Medicaid to military 
        families with special needs (anticipated completion September 
        2011)
        --  Benchmark study to assist in establishing community support 
        programs for military families with special needs (anticipated 
        completion November 2011).
    <bullet>  Developed professional materials to communicate the EFMP 
to military families. Materials to be disseminated to all military 
installation family centers in Spring 2011. These professional 
materials include materials with the EFMP joint logo such as a pop-up 
banner, table cloth, outdoor banner, notebooks and lapel pins.
    <bullet>  Developed electronic learning modules, which will be 
available to families with special needs and to providers on DoD and 
Military Department websites. The eLearning modules will educate 
families on the benefits and services available to them and the member 
with special needs. Anticipate summer 2011 completion.
    <bullet>  Initiated a Functional Analysis of the EFMP including a 
study of the Military Departments' databases and case management 
systems as a first step in developing a joint database/case management 
system. The Functional Analysis will be conducted during FY 2011 to 
examine existing systems and project future needs for sharing 
information. This is a long term project to assist in the development 
of a joint database. The final outcome will network EFMP community 
support, personnel activities and military health systems to provide 
information as needed for assignments and for community support.

    We are working with the Military Departments to validate the level 
of EFMP staffing necessary to meet the intention of the law for 
individualized services, and to ensure that the Military Departments 
have adequate funding for these positions beginning in FY 2012. [See 
page 20.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    Mr. Gordon. The Department of Defense will ensure fair competition 
and opportunity to all qualified firms. The Department of Navy 
responded in detail to Congresswoman Bordallo on February 9, 2011 
regarding her concern for federal contracting opportunities for 
companies on Guam in general and about a Morale Welfare and Recreation 
(MWR) contract currently being performed by a local company in 
particular. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 9, 2011

=======================================================================

      
      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Each year, the Department of Defense spends billions of 
dollars to provide services to military personnel and their families 
through the Defense Health Program. Included in these services are 
caregivers who look after the children of military personnel and 
provide other family related services. Background checks for service 
providers, and a system of ensuring the accuracy and timeliness of 
those checks, should be an integral part of this system to guarantee 
the safety and security of the children and families these programs 
serve.
    What is the Department doing to ensure that individuals 
participating in childcare programs under the Defense Health Program 
are qualified service providers who have undergone a thorough and 
current background investigation?
    Mr. Gordon. As background, child development programs operate under 
policies established by the Office of Military Community and Family 
Policy. Therefore, childcare providers do not fall under the Defense 
Health Program. The Department of Defense (DOD) is committed to 
ensuring the safety of children left in our care. It is our policy that 
employees and contractors in our Child Development Centers are required 
to undergo extensive background investigations.
    Mr. Wilson. Does the Department require that contractors providing 
childcare services to military personnel subject caregivers to a 
background check?
    Mr. Gordon. Yes, all contractors, as well as employees, providing 
childcare services are required to undergo background checks.
    Mr. Wilson. If so, what procedures are in place to ensure this 
requirement is adhered to?
    Mr. Gordon. A higher headquarters Service representative inspects 
for compliance during the annual unannounced certification inspection.
    Mr. Wilson. As part of the background check, what information and 
databases are required to be checked?
    Mr. Gordon. All child care employees undergo a Child Care National 
Agency Check with Inquiries (CNACI) as a condition of employment. The 
CNACI requires a search of virtually all federal law enforcement 
records, including those maintained by the FBI, DOD, the State 
Department, the Central Intelligence Agency, the Office of Personnel 
Management (OPM), Customs and Immigration Enforcement, and the Treasury 
Department. It also includes a search of local law enforcement records 
and Military Installation records and a check of state criminal history 
records for all states in which the subject of the investigation has 
resided during the preceding 10 years.
    Mr. Wilson. How often are these background checks required to be 
updated?
    Mr. Gordon. Background checks are re-accomplished every five years. 
Each Service ensures compliance with the background check policy during 
the annual certification inspection conducted by the Service higher 
headquarters staff.
    Mr. Wilson. Under what procedures does the Office of Military 
Community and Family Policy examine childcare service contract 
applicants?
    Mr. Gordon. MC&FP relies on the Contracting Officer's 
Representative (COR) of the Service that functions as the Executive 
Agent of the contract to perform these duties.
    Mr. Wilson. Have any no-bid contracts been awarded for childcare 
services in the past two years? If so, please provide the Committee 
with details on these contract awards to include: the procedure and 
criteria under which that contract was awarded; whether the contract is 
still in place; and a copy of the signed contract.
    Mr. Gordon. We are unaware of any ``no-bid'' contracts that have 
been awarded for childcare services in the past two years.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. The Department has a very active program to assist 
family members who are moving from base to base. I think we can expect 
continued high levels of relocations considering the number of moves 
due to BRAC, returns from the Middle East and transitions out of the 
military. Can you provide me with an overview of your plans to support 
all of this increased mobility? I am interested in your internet 
outreach program such as adding training and coordinating with the 
Defense Personal Property Program so that the relocation personnel can 
better assist families in the use of the Move Dot Mil portal.
    Mr. Gordon. The Department has robust ``high-tech/high-touch'' 
programs to assist Service members and their families who are 
relocating from base to base. We have over 300 Relocation Personnel 
Specialists who are located in Family Support Centers worldwide to 
provide personal, high-touch assistance to members and families. The 
services provided include counseling on:

    <bullet>  Financial Management
    <bullet>  Moving/Renting
    <bullet>  Household Goods
    <bullet>  Education/Schools
    <bullet>  Special Needs Family Members
    <bullet>  Stresses of moving and how to recognize them
    <bullet>  Spouse Employment Assistance
    <bullet>  Cultural adaptation
    <bullet>  Community orientation

    Additionally, the Military Departments have active sponsorship 
programs that facilitate the adaptation of members and their families 
undergoing a Permanent Change of Station (PCS) move into new working 
and living environments, to minimize the anxiety associated with a PCS, 
and to afford members and their families the greatest opportunity for a 
successful and productive tour of duty at their new location. Sponsors 
at the new location provide personalized outreach, information, and 
assistance to relocating members and their families.
    The two high-touch programs above are augmented by three web-based, 
high-tech applications available on the MC&FP MilitaryHOMEFRONT website 
(www.
militaryhomefront.dod.mil):

    1.  The MilitaryHOMEFRONT website offers a ``Plan My Move'' 
application that is available 24/7 for members and families who are 
relocating to a new installation. The application includes a 
customizable calendar and other tools, including pre- and post-move 
checklists to assist members and families with planning and tracking 
the many elements involved with a PCS move.
    2.  MilitaryINSTALLATIONS provides information on the new 
installation to include phone numbers and contact lists base wide. Both 
``Plan My Move'' and MilitaryINSTALLATIONS refer users to the Move Dot 
Mil portal to establish their move of household goods.
    3.  The eSponsorship Application and Training (eSAT) is designed to 
support military service members assigned the responsibility of unit 
sponsorship. The application contains online training, tools, and 
resources for sponsors and links to all Department websites supporting 
the PCS process, including Military OneSource. eSAT contains a 
downloadable checklist of the sponsor's duties and a printable 
certificate of completion of training.

    Mr. Jones. The Air Force has taken several measures to improve the 
quality of food offered at on-base establishments. I have heard good 
things about your initiative to improve dining operations on base. How 
is this ``Food Transformation Initiative'' going and should it be 
accelerated?
    Mr. Milam. Food Transformation is having a positive impact on our 
Air Force Food Service capabilities. Meals served at our dining 
facilities at the six pilot base locations have increased 22% since we 
implemented Food Transformation in October 2010. Results from the Air 
Force Caring for People survey conducted in December 2010 show customer 
satisfaction has increased at our locations where we have implemented 
Food Transformation. Using the nationally recognized American Customer 
Satisfaction Index (ASCI) as the measurement tool, Food Transformation 
locations scored a 76 in customer satisfaction, as compared to a score 
of 68 overall for Air Force dining facility programs.
    The Air Force continues to refine and improve our Food 
Transformation initiative. We are proud of the progress made to date, 
but realize we must continue to dedicate our time and full attention to 
this transformational initiative. Maintaining our current 
implementation schedule is a key to our long-term success. Our second 
portfolio of bases is scheduled for implementation in October 2011, 
with semi-annual implementation of Food Transformation to our bases 
envisioned for the following out-years. At the present time, we do not 
plan to accelerate implementations until we have garnered more 
experience in our transformed food service operations, and fully 
understand and have implemented solutions to the lessons we have 
learned from our current implementations.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
